No. __________
I N THE S UPREME C OURT OF THE U NITED S TATES

C ARLOS E SPINOZA
Petitioner
v.
W.L. M ONTGOMERY, A CTING W ARDEN
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit

C ERTIFICATE OF S ERVICE WITH F ILING BY C OMMERCIAL
C ARRIER

Pursuant to this Court’s Rules 29.2 and 29.5(b) and this
Court’s order of April 15, 2020,, I certify that I am a member of the
Bar of this Court, representing petitioner Carlos Espinoza. I further
certify that:
1.

On March 16, 2021, within the time permitted for filing this
Petition for Writ of Certiorari, I sent an original of that
petition, an original of the accompanying Appendix, and an
original of the accompanying Motion for Leave to Proceed in

Forma Pauperis, properly addressed to the Clerk of the Court,
to be delivered via a third-party commercial carrier—United
Parcel Service (UPS)—for delivery to the Clerk within three
calendar days at 1 First Street, N. E., Washington, D.C.
20543. I have concurrently e-filed these documents through
this Court’s electronic filing system.
2.

I further certify that on March 16, 2021, at the time of filing,
I caused the foregoing documents to be served on Pamela
Critchfield, Deputy Cal. Attorney General, counsel for
respondent warden, by transmitting electronic versions of the
foregoing documents to Pamela.Critchfield@doj.ca.gov and
sfagdocketing@doj.ca.gov.

Counsel

for

respondent

has

consented to receive these documents through electronic
service, in lieu of service of hard copies, pursuant to this
Court’s order of April 15, 2020. Counsel’s address and phone
number are listed below (however, the documents are being
served on counsel only electronically not by mail)::
Pamela Critchfield
Deputy Attorney General
Attorney General’s Office
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-3664
(415) 703-1234

Dated: March 16, 2021

Respectfully submitted,
/s/J. Bradley O’Connell
J. BRADLEY O’CONNELL*
Assistant Director
First District Appellate Project
475 Fourteenth St. Ste. 650
Oakland, CA 94612
Phone: (415) 495-3119
E-mail: jboc@fdap.org
*Counsel of Record for Petitioner
Carlos Epinoza

